                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                            I



 Case Number: A07100058




                  NSF OIG received an allegation that a PI^ and a CO- PI^ submitted an NSF proposal3
          containing plagiarism. Initial analysis of the declined Proposal found text, figures, captions, and
          embedded references allegedly plagiarized. After receiving the PI and co-PI'S respective
          responses to our inquiry letters, OIG determined the PI was responsible for the inadequately cited
          text and that the PI had not adequately explained his use of verbatim text.

                 We conducted our own investigation into the matter and concluded, based on a
          preponder&ce of the evidence, that the PI knowingly plagiarized, which we deemed a significant
          departure from accepted practices.

                  We recommended in our report of investigation that NSF: 1) make a finding of research
          misconduct against the PI; 2) send the PI a letter of reprimand; 3) require certifications from the
          PI regarding his proposals for a period of 3 years; 4) require assurances from an organizational
          representative regarding the proposals of the PI for a period of 3 years; 5) bar the PI from serving
          NSF as a reviewer, advisor, or consultant for 1 year; and 6) require certification of attending an
          ethics class within 1 year. The Deputy Director accepted our recommendations.
                                                                                                                 I

                  This memo, the attached Report of Investigation, and the Deputy Director's letter
          constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
                                  NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


                                      t

                                          JUL 0 7 2009

    OFFICE OF THE
   DEPUTY DIRECTOR    ,   .




         -
CERTIFIED MAIL -RETURN RECEIPT REQUESTED




        Re:     Notice of Research Misconduct Determination

Dear ~ r .
       In 2007, you submitted a proposal to the National Science Foundation ('WSF") entitled,
                                                As documented in the attached Investigative
Report prepared by NSF's Office of Inspector General ("OIG"), this proposal contained
pla&&edtext,    fibres, captions, Bnd embedded references.
                                  -
                                 ~.



Research Misconduct and Provosed Sanctions
         Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
 plagiarism in proposing or performing research h d e d by NSF ..." 45 CFR 5 689. I (a). NSF
 defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
,without giving appropriate credit." 45 CFR $ 689.1(a)(3). A finding of research misconduct
 requires that:

        (1) There be a significant departure fiom accepted practices of the relevant research
            community; and
        (2) The,researchmisconduct be committed intentionally, or knowingly, or recklessly; and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR $ 689.2(c).

        Your proposal contained verbatim and paragraphed text, as well as several captions,
figures, and embedded references, copied fiom 24 source documents. By submitting a proposal
to NSF that copied the ideas or words of another without adequate attniution, as descnied in the
OIG Investigative Report, you misrepresented someone else's work as your own. Your conduct
unquestionably constitutes plagiarism I therefore conclude that your actions meet the definition
of "research misconduct" set fbrth in NSF's regulations.
                                                                                               Page 2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed knowingly and constituted a significant departure fiom
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
research rnisconduct against you.

         NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
requiring that an institution or individual obtain special prior approval of particular activities fiom
NSF; and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 9 689.3(a)(I). Group I1
actions include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for h d i n g ; and requiring correction to the research record. 45 CFR 5
689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or cohultants; and debarment or suspension fiom
participation in NSF programs. 45 CFR 9 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was committed knowingly,
as well as our determination that it was an isolated incident. I have also considered the fact that
your misconduct had no impact on the research record, the fact that you displayed contrition for
your actions, as well as other relevant circumstances. 45 CFR 9 689.3 (b).

        After assessing the relevant facts and circumstances of this case, I am taking the following
actions against you:

       (1)     Until June 30,2012, you must provide certifications to the OIG that any proposal
               you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
               fabricated material;

       (2)     Until June 30, 2012, you must submit assurances fiom a responsible official of
               your employer to the 0IG.that your submissions to NSF do not contain
               plagiarized, falsified, or fabricated material;

       (3)     You must ixrtify to the,OIG that you have completed a research ethics training
               course on plagiarism by'~une30, 2010; and'

       (4)     Until June 30,2010, you are prohibited fiom serving as an NSF reviewer, advisor,
               or consultant.

       All certifications and assurances should be submitted in writing to OIG, Associate
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.
Procedures Governing Auueals
         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal            1
of this decision, in writing, to the Director of the Foundation. 45 CFR 8 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,                 I
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this                     I


decision will become h a l .
                                                                                                           I
       For your inhrmation, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call
292-8060.
                                                                                       at (703)            1

                                                     Sincerely,




                                                     Cora B. Marrett                                  1
                                                     Acting Deputy Director
                                                                                                      1,




Enclosures
- Investigative Report
- 45 C.F.R Part 689
         National Science Foundation
           O~fficeof Inspector General




                          Confidential
                     Report of Investigation
                    Case Number A07100058
                                     March 5, 2009


                                                      I

                                 I   r      ,             I   1


,   T   ~ Confidential
           S           Rep& df Investigation is rhe piope& of the NSF OIG and may be discl6sed outside .'
        . NSF only by OIG under. the.,-                                      j r 5 U.S.C. SS 552,5529.'
                                     Freedorfl df Information and ~ r i v ~ dActs,
                                                                  >   L
                                                                          1
                                                                                                       - .
                                                                                    NSF OIG Form 22b (11/06)
                                                                                 CONFIDENTIAL




                                    Executive Summarv
                    \
Allegation:      Plagiarism.

OIG Inquiry:      OIG identified 19 source documents from which approximately 207 unique
                  lines, 2 figures, 3 captions, and 13 embedded references were allegedly copied
                  into one declined NSF proposal.
OIG
Investigation:    OIG found an additional 23 unique lines of text from 5 additional sources and
                  4 already identified sources; OIG thus identified 24 source documents from
                  which approximately 230 unique lines, 2 figures, 3 captions, and 13 embedded
                  references were allegedly copied intb one declined NSF proposal.

OIG Assessment:          OIG determined:
                            The Act: The PI committed plagiarism in one proposal.
                            Intent: The PI acted knowingly.
                            Standard of Proof: A preponderance of evidence supports the
                            conclusion that the PI committed plagiarism.
                            Significant Departure: The PI'S plagiarism represents a
                            significant departure from accepted practices.
                            Pattern: None.
OIG Recommends:
                              Make a finding of research misconduct against the PI.
                              Send the PI a letter of reprimand.
                              Require certifications from the PI for a period of 3 years.
                              Require assurances on the PI'S NSF submissions for a period of 3
                              years.
                              Bar the Subject from serving NSF as a reviewer, advisor, or
                              consultant for 1 year.
                            i
                              Require certification of attending an ethics class within 1 year.
        The National Science ~oundation(NSF) Office of Inspector General (OIG),conducted an
                     B
inquiry into an alle ation that a Principal Investigator (PI') and a co-PI' submitted an NSF
proposal (Proposal ) containing plagiarism. Initial analysis of the declined Proposal found
approximately 207 unique lines, 2 figures, 3 captions, and 13 embedded references allegedly
plagiarized from 19 source doc~ments.~     The allegedly copied text appeared in the Proposal's
Introduction and Background sections. OIG noted that citations to the source documents
generally did precede or follow the allegedly copied text. However, the text was copied verbatim
without quotation marks or other demarcation. Further, OIG noticed that the PI and co-PI
occasionally modified the text copied fiom the source document to indicate that they themselves
had not done the project described thereinS5

      OIG contacted the PI and co-PI about the allegation.6 The co-PI responded7 that the PI, a
new postdoctoral research fellow, was responsible for the Proposal. The co-PI wrote:

                 . . . the amount of text that is similar or identical in the nineteen
                 articles and the text within the general background and review of the
                 literature in the Project Proposal section is striking. However, while
                 this text does contain phrases in common usage . . . regrettably it may
                 also copy others' language inappropriately, even though their work is
                 cited.'

         The PI, in his responseY9accepted responsibility for the inadequately cited text, which he
noted appeared in the Proposal's background and literature review sections. He examined the
annotated text'' and'found their 19 sources cited 63 times within the Proposal. He observed that
 18 sections of annotated text were 100% identical to the alleged source document while the other
,39 rearranged the source document's wording. He also claimed that 26 sections contained
material located elsewhere on the Internet.

       Crucially, the PI acknowledged that 7 sections did not contain any nearby citations,
which he attributed "to [his] rashness, thoughtlessness, and inattention that could happen because




for both the PI and co-PI appear in Tab I after the Proposal.
   Tab 2: Sources A-S. The 19 source documents are all journal articles.
   One example is the removal of 'we' when incorporating Source C3; another example is the removal of 'we' and
'our' when incorporating Source H4; etc.
   Tab 3.
   Tab 4.
   Tab 4, pg. 2 of the co-Pl's response.
   Tab 4.
' O Tab 4, Appendix 1 of the PI'S response.
the text was being rearrangedlreshuffled and reduced several times during the proposal
preparation" and "to [his] misunderstanding of the plagiarism definition as a whole.""

           In conclusion, he wrote:

                    I deeply regret that I failed to give a proper attribution for seven text
                    fragments, significantly paraphrase original material from the 19 cited
                    sources on a number of other occasions, and distinguish the identical
                    fragments and statements with quotation marks. All detected instances
                    of alleged plagiarism were inadvertent and unintentional due to my
                    thoughtlessness and/or misunderstanding of the plagiarism notion; l 2

        OIG's review of the responses noted that both the PI and co-PI concurred that the PI
wrote the inadequately cited text. We were therefore persuaded that the allegation against the co-
PI was not substantiated. However, we were not convinced that the PI adequately explained his
use of verbatim text. The examples the PI provided of other documents containing identical text
contained only segments, rather than whole sections of the annotated text. Additionally, NSF's
research misconduct regulation does not make any distinctions about plagiarism depending on
where it occurs in a proposal's text. We thus determined there was sufficient evidence to proceed
with an investigation focused only on the PI.

                                              OIG's Investigation

         Given the size and nature of the not-for-profit organization that submitted the ~ r o ~ o s a l , ' ~
OIG conducted its own investigation rather than referring the matter to the PI's home institution.
OIG began by re-examining the Proposal. We found an additional 23 unique lines of text
allegedly copied from 5 additional sources and 4 previously identified sources.I4 This additional
text, like the original identified text, appeared in the Introduction and Background sections.15The
following table illustrates the total material allegedly plagiarized in the Proposal from each
source:




"    Tab 4, pg. 3 of the PI's respdnse.
l2   Tab 4, pa. 3 of the PI's response.
13
                                      Tab 5 contains information about this organization.
14
   Tab 6 contains the re-annotated proposal; Tab 7 contains the additio'nal Source documents, all of which, 1ike the
originally identified source documents, are journal articles.
15
   Although 10 of the newly annotated lines did appear in sections other than the Proposal's Introduction or
Background, these lines still constituted background, and not the PI's proposedresearch.
                                                                                        Sections PI ~ c k n o w l e d ~ e d ' ~
                                                                                        did not Have Nearby Citation
      Source         Proposal-
      A                  41 lines, 1 figure, 2 captions
      B                  25 lines, 2 embedded references
      C                  26 lines, 3 embedded references
      D                  3 lines, 1 figure, 1 caption
      E                  4 lines
                                                                                        F1-F2: 7 lines.
      F                  7 lines, 2 embedded references                                 2 embedded references
                                                                                        GI: 2 lines,
      G                  6 lines, 1 embedded reference                                  1 embedded reference
                                                                                        HI-H3: 11 lines,
     IH              1 21 lines, 4 embedded reference                               1   4 embedded references




      L                  10 lines
      M                  7 lines, 1 embedded reference



      P              1 3 lines
      Q              1 9 lines
     1
     R
      S              (   4 lines
      T              1 4 lines
     1u              1 2 lines                                                                                                1
     v                   2 lines
      W                  1 line
      X                  7 lines

      Total                                                                             22 lines,
      24 Sources         230 lines; 2 figures; 3 captions; 13 embedded references       7 embedded references

As illustrated, OIG identified a total of 24 source documents from which approximately 230
unique lines, 2 figures, 3 captions, and 13 embedded references were allegedly copied into the
Proposal. Thus, in total, plagiarized text comprised approximately 5 pages, or 113 of the
Proposal. Additionally, we noted that the PI himself acknowledged during the inquiry that 22
lines and 7 embedded references contained in 7 sections did not contain any nearby citation.

       We informed the PI that we were initiating an investigation and asked him to respond to
additional questions.'7 In his response,'' the PI again accepted responsibility, adding:



l6   PI acknowledged these sources in his response to our inquiry letter (Tab 4).
" Tab    8.
l8   Tab 9.
                   I would like now to repeat that I sincerely apologize for
                   unintentional usage of sections from other sources without their
                   significant paraphrasing or using quotation marks, and for not
                   referring to the appropriate sources of several proposal text
                   fragments, all of which is plagiarism. My misunderstanding that
                   references in the text (in-text citations) and literature list would be
                   sufficient in giving appropriate credit to other sources had led me to
                   the plagiarism and it is my regretful fault.I9

        The PI, who received his education in his native country,20explained that, although he
had heard about plagiarism, he had never received research ethics training. He was unaware of
any regulatory documents in his native country and in the U.S. that provide comprehensive                               '
definitions of plagiarism.21Before receiving our inquiry letter, the PI understood plagiarism as
"using verbatim or paraphrased sections from other works, as if they are [his] own, without
giving any attributionlreferences to sources (papers) in both [his] written text (in-text citations)
and its literature list." 22 NOW,he understands that

                   plagiarism occurs in all cases when a person uses verbatim sections
                   without quotation marks and references, or insufficiently paraphrases
                   original material even if an appropriate attributionlreference is given in
                   both the person's text (in-text citations) and literature list.23

Nonetheless, he still does "not unfortunately know of any regulation documents or guidelines
that would specify to what significant degree a cited original text must be paraphrased and how
that degree should be objectively assessed."24He added that NSFYs"plagiarism notion"

                   . . . is short and does not specify a detailed and exact meaning of
                   appropriate credit including requirements to provide not only
                   attributionlreferences in the proposal text (in-text citations) and its
                   literature list, but also significantly rephrased sections from other
                   papers or quotations marks if identical text sections of other authors
                   are used.25

       Consistent with our request,26the PI provided our office with copies of his current C V ~ ~
and the Proposal drafts.28 His CV confirmed that the PI was educated entirely in his native
c0unb-y. Since 1999, though, the PI has worked at U.S. institution^;^^ and, since 2001, he has


:aw
2'
22
             2 . Emphasis in this and other excerpts in the report are noted as they appear in the original document.

   Tab 9, pg. 2.
   Tab 9, pg. 2-3.
23 Tab 9, pg. 2.
24 Tab 9, pg. 3.
25
   Tab 9, pg. 3.
26 Tab 8.
     -   -


27 Tab 9, Appendix I .
    completed a number of U.S. professional development courses. One such course, sponsored by
    NIH, instructed participants about peer review, grant writing, and funding opportunities.30
    Another such course was a grant writing workshop he attended while employed at a U.S.
    instit~tion.~'

            The CV also indicated that the PI is a prolific co-author and primary author:3240 refereed
    journal articles; 27 symposium proceedings; 2 technical articles and edited publications; 5 book
    chapters and collection articles; 29 popular articles and reviews; 11 abstracts; and 6 invited
    papers presented at professional meetings. These writings appear in:both English and non-
    English publications. For example, 26 of the 27 symposium proceedings were given at non-U.S.
    symposiums; but 27 of the 40 refereed journal articles appear in English publications.
    Additionally, the CV states that the PI reviews papers for ~n~lish-language   journals,33 and that
    the PI is fluent in ~ n ~ l i s h . ~ ~
)
            OIG also examined Proposal drafts the PI provided - two later drafts that were saved35-
    to see whether they contained citations for the 7 uncited excerpts. They did not. Because the PI
    did not retain earlier drafts,36we were unable to confirm that the citations were inadvertently
    removed during Proposal preparation.37

           OIG contacted a Program Director from the Proposal's division and d i r e ~ t o r a t eto~ ~
    determine the standards of the PI'S larger research community. We were directed to the "Code of
    Ethics" from the                                       and from ~ c i e n c e . m ~ u i d e l i n state:
                                                                                                      es




    Science does not include a statement regarding plagiarism in its,general information for
    authors, but does include links to research standards when addressing'peer review.




    30 Tab   9, Appendix 1, pg. 2.




    '* Tab 9, Appendix I , .pg.
                             - 5.
    35 Tab 9, ~ b ~ e n d 2.
                          ix
    36 Tab 9, pg. 2.




    " Tab 10.

                                                       6 ,
        We then explored the standards of the PI'S personal research communities and noted that
websites of both the PI'S current employer40and the PI'S primary professional society4' did not
contain statements regarding research standards.42However, the PI'S former em loyer has a
                                                                               49
research misconduct policy that includes a definition of plagiarism,43as do two of the six
journals for which the PI provides reviews.

       Lastly, our office examined four other publications the PI authored or co-authored4' to
determine whether the action constituted part of a larger pattern.46 Examination of these
dqcuments did not identify inadequately cited text.

                                                 OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be                   '



committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.47

                                               The.Act
        The PI plagiarized approximately 230 unique lines, 2 figures, 3 captions, and 13
embedded references from 24 source documents within the ~ntroductionand Background
sections of one declined NSF proposal. Although he often provided in-text citations either before
or after the material, he did not overtly indicate that the text was identical or nearly identical to
the text in the source document. As such, those reading the proposal could understandably
assume that the PI had himself authored or had adequately paraphrased the text. Indeed, only
four of the Proposal's 15 pages, the pages that contained the Proposal's research plan, did not
contain any plagiarized text.
                                                                                                            ,/




4L   According to the PI'S CV, the other groups to which the PI belongs are discussion groups, neither of which




   written independently.
46 The Proposal this report discusses is the only NSF proposal the PI had submitted.
47 45 C.F.R. $689.2(c).
       OIG finds that the PI significantly departed from the accepted sthndards of the research
community in failing to use quotation marks to differentiate between text written by others and
his own words.

                                               Intent
        OIG concludes the PI acted knowingly. First, the PI knowingly incorporated 13
embedded references from the source documents into his Proposal. In so doing, he not only
adopted text authored by others as text he himself had written or paraphrased, but misrepresented
his own body of knowledge. Second, the PI acknowledged having copied text without citation
and apologized for his actions. Lastly, the extent of plagiarism within one proposal, with the
project description and the background sections (9 pages out of 15) assembled primarily by
threading together verbatim text written by others, indicates the PI'S actions were more than
reckless. OIG thus concludes that the PI'S actions were knowing.

                                        Standard o f Proof
       OIG finds that the PI'S actions and intent were proven based on a preponderance of the
evidence.

       OIG concludes that the PI, by a preponderance of the evidence, knowingly plagiarized,
                                                                                                     1
thereby committing an act of research m i s c o n d u ~ t . ~ ~

                                   OIG's Recommended Disposition
                                                                    L

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                   (1) How serious the misconduct was; (2) The degree to which the
                   misconduct was knowing, intentional, or reckless; (3) Whether it was an
                   isolated event or part of a pattern; (4) Whether it had a significant impact
                   on the research record, research subjects, oiher researchers, institutions or
                   the public welfare; and (5) Other relevant cii-cum stance^.^^

                                              Seriousness
         The PI'S actions are a violation of the standards of scholarship and of the fundamental
tenets of research ethics. The extent of the plagiarism - 230 unique lines, 2 figures, 3 captions,
and 13 embedded references within one declined NSF proposal from 24 source documents - is
itself serious. Only four of the Proposal's 15 pages did not contain any plagiarized text.
Although the PI often included citations before or after the copied text, by failing to include
quotation marks, the PI misrepresented the text as his own authorial product. Furthermore, by
including embedded references from the source documents themselves; he misrepresented his
own body of knowledge.



48   45 C.F.R. part 689.
49   45 C.F.R. 5 689.3(b).
                                Degree to which Action was Knowing
        The act of plagiarism is generally an act done knowingly. In this case, the PI knew he
had prepared two proposal sections by intertwining verbatim text from various sources, even
modifying source document text to indicate that he himself had not done the project described     .
therein. He also knew he had included embedded references from source d'ocuments into his
Proposal. He was aware that this was inappropriate. Although the PI earned his undergraduate
and graduate degrees in his native country,50he has worked in the U.S. since 1999. His former
employer has a research misconduct policy that includes a definition of plagiarism, The PI also
attended grant writing workshops as part of his professional development, even receiving an
award on a proposal submitted following one such workshop that was judged by a panel of
university researchers. Moreover, the PI has co-authoredlindependently authored5' and reviewed
articles prolifically in the U.S. These factors, coupled with the fact that the PI generally did
include citations in his Proposal, leads us to conclude his act of copying text without quotation
marks or other demarcation reflects a distinctly knowing action.

                                            Pattern
        OIG concludes that the current evidence does not support a finding of pattern within the
PI'S actions.

                                               Recommendation

Based on the evidence, OIG recommends that NSF:

         send a letter of reprimand to the PI informing him that NSF has made a finding of
         research m i s c ~ n d u c t . ~ ~

         require the PI to certify to OIGYsAssociate Inspector General for Investigations (AIGI)
         that proposals or reports he submits to NSF do not contain plagiarized material for 3
         years:53

         require that the PI submit assurances by a responsible official of his employer to AIGI,
         OIG, that any proposals or reports submitted by the subject to NSF do not contain
         plagiarized material for 3 years.54

         bar the PI fiom serving NSF as a reviewer, advisor, or consultant for 1 year
         commencing on the date of NSFYsfinding of research m i s c ~ n d u c t . ~ ~

         require the PI to complete an ethics course within 1 year and provide certification of its
         completion to OIG upon completion.
50
   Tab 9 contains information regarding the Subject's education and professional development courses.
51
   OIG concurred with the Subject's comment on the draft report regarding our description of him as a prolific writer
(Tab 12, pg 2), and changed the language accordingly.
52
   A letter of reprimand is a Group I action (45 C.F.R. $689.3(a)(l)(i)).
53
   Certification by an individual is a Group I action (45 C.F.R. $689.3(a)(l)(iii)).
54 Requirement for assurances is a Group I action (45 C.F.R. $689.3(a)(l)(iii)).
55
   Prohibition fiom serving as a reviewer is a Group 111 action (45 C.F.R. $689,3(a)(3)(ii)).
                          The Subiect's Response to Draft Investigation Report

        We provided the Subject with a copy of our draft report and attachments, and afforded
him the opportunity to comment.s6 The Subject submitted a responses7 in which he reiterated he
had been and remains uncertain regarding the "plagiarism notion and appropriate credit
provision."s8 He added he had been unaware of his former employer's or journals' research
misconduct policies described in our report, and noted their plagiarism definitions, like NSF
OIGYs,lacked a precise definition of plagiarism. Overall, he argued he did not commit
plagiarism knowingly. Nonetheless, he stated:

                    In conclusion, I understand now that regardless of my
                    misunderstanding of plagiarism notion and appropriate credit terms
                    in the past and at the time of proposal writing, OIG has full rights in
                    assessing this case as plagiarism and research misconduct. As I stated
                    in my letter dated July 8,2008, I fully accept the grounded OIG
                    allegations in plagiarism, deeply regret about my fault, apologize for
                    unintentional plagiarism occurred in my grant proposal [ 1, and beg
                    your pardon. I will humbly and submissively obey a punishment OIG
                    decides be appropriate to inflict on me.s9

We examined the Subject's reply, and re-examined our assessment and recommended,
dispositions. We determined that the Subject's reply did not provide adequate reason for OIG to
change its original determinations and recommendations, as stated above.




56
   Tab   11.
57 Tab   12.
                                                 >
   Tab   12, pg 1.
59 Tab   12, pg 4. Text bolded as in original.
